No. 19-1039

 

 

IN THE

Supreme Court of the Hunited States

PENNEAST PIPELINE COMPANY, LLC,

Petitioner,
Vv.

NEW JERSEY, ET AL.
Respondents.

On Writ of Certiorari to the United States Court of
Appeals for the Third Circuit

BRIEF OF THE STATES OF OREGON, CALIFORNIA,
CONNECTICUT, DELAWARE, HAWAII, ILLINOIS,
MAINE, MARYLAND, MASSACHUSETTS, MICHIGAN,
MINNESOTA, NEVADA, NEW MEXIco, NEw YORK,
NORTH CAROLINA, RHODE ISLAND, VERMONT,
VIRGINIA AND WASHINGTON, AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,993 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 7, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
